              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
 Management of the Department’s
 Protective Forces




DOE/IG–0602                                 June 2003
                               Department of Energy
                                    Washington, DC 20585
                                    J u n e 3 , 2003



MEMORANDUM FOR THE, SECRETARY
                           +&k
FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Management of the
                          Department's Protective Forces''


BACKGROUND

The Department of Energy and its contractors are responsible for protecting materials and
facilities critical to the Nation's nuclear defense program, as well as those used to support
scientific, research, and environmental-related missions. While the security of
Department sites has been a priority for many years, in the wake of the terrorist attacks of
September 11,2001, the Department took action to enhance security at its facilities. One
important aspect of this initiative was an increased need for additional protective force
personnel. For example, at National Nuclear Security Administration sites, authorized
positions increased by 17 percent, to 2,319 officers. Once all positions are filled, annual
security force costs for those sites are expected to exceed $251 million for the current
fiscal year, an increase of 67 percent.

In previous reports, the Office of Inspector General identified a number of efficiency
concerns relating to the Department's management of its protective forces. In light of
these concerns, we initiated this audit to evaluate the Department's management of its
protective force program.

RESULTS OF AUDIT

Our review disclosed that in the post-September 11 period, a number of improvements
had been made in the management of the protective force program. However, we noted
that the Department still faced a number of challenges that could adversely affect the
program. Specifically, we observed:

   0   Long delays associated with granting clearances for newly employed protective
       force officers;
   0   Significant increases in unscheduled overtime costs;
       Morale and potential retention problems based on mandatory overtime arid
       declining training opportunities; and,
       Operational vulnerabilities associated with unscheduled work stoppages.




                                 @     Printed w l h soy ink on recycled paper
Clearly, the Department, like other Government agencies, faced a number of challenges
relative to the unanticipated demand for supplemental security forces immediately after
September 11,2001. Now, however, the Department has the opportunity to improve the
operation of its protective force program by taking advantage of accelerated methods of
processing security clearances for officers, implementing related contractor performance
expectations, and developing an overall protective force contingency strategy.
Implementation of these measures should enhance management of the protective force,
ultimately reduce costs for mandatory overtime, and help ensure that sensitive national
defense and other mission-related facilities are appropriately protected.

We noted that the Department had already taken a number of actions to reduce the impact
of heightened security on overtime costs. For example, the National Nuclear Security
Administration (NNSA) issued guidance granting authority to arm protective force
personnel who have "L" - rather than the higher level "Q" - clearances to help alleviate
overtime costs and free up officers to attend required training sessions. NNSA also
initiated a study to determine how to decrease unscheduled overtime to an acceptable
level. Additionally, the Department has begun the process of hiring approximately 400
more officers to reduce unscheduled overtime.

While these are positive steps, additional action is needed to improve the Department's
protective workforce. Consequently, we made a number of recommendations to develop
and implement workforce management tools that should assist the Department and its
contractors in maintaining an effective security force.

MANAGEMENT REACTION

Management generally concurred with our recommendations regarding accelerated
clearance processing, workforce monitoring, and overtime. While most Department
organizations endorsed the need for an agency-wide contingency plan, one office stated
that such a plan was impractical and recommended that only site-level plans be
developed. Overall, management has implemented, or intends to implement, actions that
should satisfy our recommendations. Management's comments are included verbatim in
Appendix 3.


Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration, NA- 1
    Under Secretary for Energy, Science and Environment
    Director, Ofice of Security, SO- 1




                                           2
MANAGEMENT OF THE DEPARTMENT'S PROTECTIVE FORCES

TABLE OF
CONTENTS



              Protective Force Concerns

              Details of Finding .......................................................................    1
              Recommendations and Comments.. ..........................................
                                                                                                            5

              Appendices

              1. Objective, Scope, and Methodology .....................................                   7

              2. Prior Reports........................................................................     .9

              3. Management Comments.....................................................                  10
MANAGEMENT OF THE DEPARTMENT'S PROTECTIVE FORCES

Protective Force   Although the Department of Energy (Department) had taken steps to
Concerns           improve the management of its protective forces, it faced a number of
                   challenges that included delays in processing security clearances,
                   increasing overtime costs, potential retention problems, and operational
                   vulnerabilities associated with unscheduled work stoppages.

                                        Security Clearance Processing

                   Even though the Department had initiated a number of efforts to
                   increase the population of fully qualified protective force officers,
                   security officials told us that these efforts have not been completely
                   effective because of long delays associated with security clearance
                   processing. According to security officials at Los Alamos,newly hired
                   officers were not available for assignments requiring a "Q" clearance
                   for as long as a year and a half while their clearances were being
                   processed through routine channels. As of December 2002, a National
                   Nuclear Security Administration (NNSA) management official told us
                   that nationwide, 22 percent of NNSA's security officers (over 400
                   individuals) were not available to assume some or all of their duties
                   because of problems and delays in processing security clearances.

                                                Overtime Costs

                   Qualifying officers in a timely manner for assignment is critical
                   because it directly affects the overall cost of security for the
                   Department. The increase in security posture and the corresponding
                   need for fully qualified officers, coupled with long clearance processing
                   times, have caused overtime costs to increase significantly since
                   September 1lth. For example, since the terrorist attacks, Pantex has
                   incurred an additional 28 1,739 overtime hours at a fully burdened cost
                   of $13,253,180. Also, Sandia has incurred an additional 41,080
                   overtime hours annually, equating to $2,083,000 per year, in overtime.
                   Officials at the Nevada Test Site indicated that they have experienced
                   an 11 percent increase in overtime at an unburdened cost of $425,000.
                   While increases are likely to be similar at other sites, we were unable to
                   develop estimates because the Department did not always track
                   mandatory overtime costs.

                                         Morale and Retention Issues

                   In addition to cost considerations, increases in unscheduled overtime
                   and a resulting decline in training opportunities may adversely impact



Page 1                                                                   Details of Finding
         the ability to retain qualified officers. For example, we recently
         reported' that one site that had significant amounts of overtime, had not
         ensured the conduct of mandatory refresher training, and was
         experiencing high attrition rates. Since the change in security posture,
         heavy burdens associated with mandatory overtime have significantly
         reduced the availability of fully qualified officers for training. Morale
         suffered because certain officers have been unable to advance and have
         been denied vacations. In an effort to address these issues, NNSA told
         us that after September 11,2001, it initially provided relief by adjusting
         training requirements.

         While the training adjustments initially ameliorated operational
         impacts, they did not completely resolve morale and effectiveness
         problems. For example, at certain locations, officers were denied
         vacations, filed complaints because of what they characterized as
         "excessive" overtime, and in some cases, were unable to advance
         because they could not obtain necessary specialized training.
         Contractor officials at certain sites also indicated that the inability to
         attend training could become an attrition issue, and without relief, may
         lead to increased losses. While supervisory security management
         officials believed that losses may have occurred because of overtime
         and training issues, they told us that they could not quantify the number
         of officer losses due to these issues because they did not track reasons
         for attrition. Site security officials explained that the opportunity to
         participate in training is important because it provides a break, or
         "refi-esher"period that in addition to the direct benefits, permits officers
         to refocus. NNSA officials told us that the issue could become critical
         because officers at three of nine NNSA sites were experiencing fatigue
         that could diminish their effectiveness. The actual or potential loss of
         fully qualified officers is significant because of the estimated $37,000
         initial cost to train a replacement and the resulting increase in
         mandatory overtime that must be incurred by the remaining force.

                                   Operational Vulnerabilities

         The Department also had not developed a contingency plan and may
         not be adequately prepared to respond to potential protective force
         shortages caused by unscheduled work stoppages or the activation of
         military reserve forces. Even though individual sites had developed
         plans, they were primarily designed to provide minimum levels of
         protection for materials. According to site officials, such levels may


         'The cited OEce of Inspector General report is classified.


Page 2                                                                Details of Finding
                    not be sufficient to allow sites to cany out production, testing, or other
                    mission-related activities in the event of a protective force strike. The
                    significance of the problem could be exacerbated by the fact that four
                    major site contracts expire and must be renegotiated within a ten-month
                    period. If shortages of officers occurred at several locations
                    simultaneously, the Department could be forced to shut down critical
                    operations at those sites. Site level plans also do not specifically
                    address supplementing protective forces with officers fiom other
                    sources in the event of the activation of military reserve forces. The
                    impact of such recalls could be substantial because military reservists at
                    Lawrence Livennore, Sandia, and Los Alamos comprise 13.7, 10.9, and
                    14.6 percent, respectively, of the workforce.


Opportunities for   While the Department was initially unable to immediately respond to
Improvement         shortages of protective forces, it now has the opportunity to improve
                    protective force management. Specifically, the Department had not
                    taken advantage of accelerated methods of processing security
                    clearances for officers, implemented related contractor performance
                    expectations, and established responsibility for and developed a
                    cooperative Department-wide protective force contingency plan.

                                       Accelerated Clearance Processing

                    Several sites had not taken advantage of clearance processing options to
                    mitigate cost and workforce impacts associated with the change in
                    security posture. For instance, Sandia National Laboratories did not
                    fully utilize the Department's Accelerated Access Authorization
                    Program (AAAP)to minimize the period new employees were assigned
                    to "restricted duties." The AAAP expedites the security clearance
                    process by granting a "Q" interim access authorization and allows the
                    officer to begin working with classified material before the standard
                    background investigation is complete. Some sites also did not use
                    prescreening techniques such as credit and local agency checks to help
                    expedite the qualification process. In contrast, Pantex and the Nevada
                    Test Site utilized an accelerated process and were able to fully utilize
                    new officers up to six months sooner. Pantex and the Nevada Test Site
                    also routinely prescreened applicants to decrease the risk of rejection
                    and speed the clearance grant. Headquarters officials in the Office of
                    Security told us that even though the accelerated process had been in




Page 3                                                                    Details of Finding
-




                          place for a number of years, some sites chose not to take advantage of
                          it. While costs of the program and prescreening were $500 to $1,000
                          higher than routine processing, officials at Pantex indicated that the
                          benefit of having officers available for unrestricted assignment
                          significantly outweighed the cost of the accelerated program.

                                            Contractor Performance Expectations

                          A lack of contractor performance expectations may also have affected
                          the Department's ability to reduce overtime costs. For example, most
                          sites did not include in their contracts a performance expectation that
                          the contractor would evaluate cost effective alternatives to overtime. In
                          fact, only Pantex included a Fiscal Year (FY) 2000 performance
                          expectation that the contractor would develop alternative methods to
                          reduce protective force overtime. Of the four sites we visited, Pantex
                          had acted the most aggressively in reducing clearance-processing time
                          and had the lowest current percentage of overtime. Incorporating
                          security performance expectations into operating contracts could
                          incentivize contractors to improve performance and would provide the
                          Department with a mechanism to potentially reduce protective force
                          costs.

                                                   Contingency Planning

                          The Department had not assigned responsibility or authority for
                          developing and implementing a complex-wide protective force
                          contingency plan. Currently, responsibility for protective force
                          resources is distributed across organizational lines and no effort has
                          been made to coordinate an overall plan. For example, Office of
                          Security officials believed that it was not feasible for them to develop a
                          plan because they had neither the responsibility to develop nor the
                          authority to implement such a plan. An NNSA official, on the other
                          hand, believed that a plan was needed and that it could involve actions
                          such as developing formal memorandums of understanding with
                          military or Federal law enforcement agencies. Without an inclusive
                          plan, the Department may not be adequately prepared to respond to
                          potential protective force shortages caused by unscheduled work
                          stoppages or the activation of military reserve forces.


    Operational Impacts   Unless actions are taken to address overtime and related issues and
                          develop an organi zatiota-level contingency plan, the Dqmtxnent risks
                          reducing the effectiveness of its protective forces and its ability to


    Page 4                                                                      Details of Finding
                      adequately protect sensitive nuclear or other national defense related
                      facilities. Specifically, continued high levels of stress caused by
                      excessive overtime increases physical fatigue and could evolve into
                      health and safety issues for the Department. Additionally, the
                      Department faces potential increases in protective force attrition caused
                      by overtime-induced stress and fatigue.

                      Furthermore, if unanticipated events such as strikes or significant
                      military recall were to occur, the Department may not be able to obtain
                      a sufficient number of replacement security officers. For example, at
                      Pantex, officials notified Headquarters of a possible strike and
                      requested approximately 100 replacement officers based on their
                      minimum need. However, Headquarters lacked a Department-level
                      plan or agreements with sites and was only able to secure about 25
                      replacement officers through ad hoc requests for volunteers fi-om other
                      locations. Because of the lack of centralized support, Pantex officials
                      were forced to bargain, through their site contacts, for the additional
                      officers necessary to sustain minimum nuclear material protection
                      needs. The lack of labor distribution data also limited the ability of site
                      and program officials, such as those fi-om NNSA, to monitor or control
                      mandatory overtime costs.


RECOMMENDATIONS       We recommend that the Administrator, National Nuclear Security
                      Administration and the Under Secretary for Energy, Science and
                      Environment work together and take the following actions:

                          1. Increase the use of prescreening in conjunction with the AAAP
                             to improve the timeliness of the clearance process;

                          2. Incorporate performance expectations into the Department's
                             management contracts directed at the use of cost effective
                             alternatives to administering protective force overtime costs;

                          3. Develop a Departmental level protective force contingency plan;
                             and,

                         4. Track protective force overtime costs and attrition rates as a
                            means to monitor the effectiveness of workforce management
                            initiatives at the contractor and program level.

MANAGEMENT REACTION   We received comments from NNSA and from the Department elements
                      reporting to the Under Secretary for Enzrgy, Science and Environment.


Page 5                                                   Recommendations and Comments
                   Management generally agreed with the draft report and the
                   recommendations. Regarding recommendation 2, management's
                   written comments expressed concern that incorporating performance
                   expectations focused on overtime costs would be counterproductive.
                   Subsequently, we clarified that the intent of that recommendation was
                   to encourage the use of available alternatives to overtime. Management
                   concurred with recommendation 2 as now stated in the report.

                   While most organizations commenting believed it may be appropriate
                   to develop a Department-wide contingency plan, some expressed
                   concern that such a plan might not be practical. The Department's
                   verbatim comments can be found in Appendix 3.


AUDITOR COMMENTS   Management's comments, including discussions held subsequent to
                   receiving the written responses, indicated the Department's intent to
                   take action that will satisfactorily address the recommendations.
                   However, management has not yet prepared a formal corrective action
                   plan.




Page 6                                                                       Comments
Appendix I

OBJECTIVE     To determine whether the Department was adequately managing its
              protective force program.


SCOPE         We conducted the audit fiom April 2002 to December 2002, at
              Department of Energy Headquarters in Washington, DC; Sandia
              National Laboratories in Albuquerque, New Mexico; Los Alamos
              National Laboratory in Los Alamos, New Mexico; Pantex Plant in
              Amarillo, Texas; and Nevada Test Site, in Las Vegas, Nevada.


METHODOLOGY   To accomplish the audit objective, we:

                     0   Reviewed actions taken by the Department since the
                         issuance of the audit report Management and Cost ofthe
                         Department of Energy's Protective Forces (DOE/IG-
                         0354, July 1994);

                         Reviewed applicable Federal regulations, Departmental
                         orders, and implementing procedures and practices at
                         Headquarters and at four sites;

                     0   Reviewed current union agreements at the four sites
                         visited, as well as six other sites;

                         Reviewed and analyzed protective force costs (labor,
                         overtime, training, exercise program, and supplies and
                         equipment);

                         Obtained and analyzed Office of Security quarterly and
                         yearly strength reports;

                     0   Reviewed performance-related information to determine
                         compliance with the Government Performance and
                         Results Act of 1993;

                         Held discussions with Headquarters and other Federal
                         Government officials regarding the Department's
                         protective forces; and,




Page 7                                        Objective, Scope, and Methodology
                0   Held discussions with officials from Sandia and Los
                    Alamos National Laboratories, as well as the Pantex
                    Plant and Nevada Test Site regarding protective forces.

         The audit was performed in accordance with generally accepted
         Government auditing standards for performance audits and included
         tests of internal controls and compliance with laws and regulations
         to the extent necessary to satisfy the audit objective. Accordingly,
         the assessment included reviews of Departmental and regulatory
         policies, procedures, and performance measures related to the
         Department's protective forces. Because our review was limited, it
         would not necessarily have disclosed all internal control deficiencies
         that may have existed at the time of our audit. We did not conduct a
         reliability assessment of computer-processed data because only a
         very limited amount of computer-processed data was used during the
         audit.

         The exit conference was held with management on May 6,2003.




Page 8                                    Objective, Scope, and Methodology
Appendix 2

                                     PRIOR AUDIT REPORTS


OFFICE OF INSPECTOR GENERAL RELATED REPORTS


     The Restructure of Security Sewices by the Oak Ridge Operations Ofice, (DOE/OIG-0487, October           /
     2000). The purpose of the audit was to determine why security costs increased at the Oak Ridge
     Reservation after the restructuring of its security services. The audit disclosed that the Oak Ridge
     Operations Office did not manage the restructuring effort in a way that would have achieved its
     goals. Specifically, the Operations Office did not perform an analysis of security service staffing
     levels, determine the scope of work to be transferred, or develop cost-reduction measures or
     incentives to ensure efficient contractor performance, In addition, the Operations Office did not
     consider cost as a ranking factor in the selection of security services. Management concurred with
     the finding and recommendations and agreed to initiate corrective actions.

     Security Overtime at the Oak Ridge Operations Ofice, (ER-B-00-02, June 2000). The purpose of
     the audit was to determine whether the Oak Ridge Operations Office's new security contract
     provided incentives for Wackenhut to reduce overtime and minimize costs. The audit found that the
     new contract did not provide Wackenhut with incentives to reduce overtime or minimize costs. This
     occurred because the Operations Office did not consider contractual incentives for overtime
     reductions to be necessary. As a result, the Department could incur a significant amount in
     avoidable overtime costs during the term of the contract. Management concurred with the finding
     and recommendations and agreed to initiate corrective actions.

     Management and Operating Contractor Overtime Costs, (DOE/OIG-0381,October 1995). The
     objective was to determine whether the Department had controls in place to monitor and manage
     contractor overtime use. An analysis of the 50 management and operating contracts that were in
     effect at the end of FY 1994 and a detailed review at four of these contractors showed that the
     Department did not adequately monitor and manage contractor efforts to minimize overtime.
     Management did not specifically concur or nonconcur with the finding and recommendations.
     Management commented that it had identified a need to implement an overtime policy that was
     consistent with contract reform initiatives and that balances the need for reduced oversight against
     the need to demonstrate responsible stewardship of taxpayer dollars.

     Management and Cost of the Department of Energy's Protective Forces, @OE/IG-0354, July 1994).
     The purpose of the audit was to determine if protective forces were efficiently managed and
     appropriately sized in light of the changing missions and current budget constraints. The audit noted
     several opportunities for the Department to improve the operational efficiency of the protective
     forces operations, including eliminating overtime paid to officers prior to completion of the basic
     40-hour workweek. Management concurred with the findings and recommendations and agreed to
     take appropriate actions to improve the efficiency of managing protective forces.



Page 9                                                                                      Prior Reports
-



    Appendix 3


                                             Department of Energy
                                               Office of Science
                                             Washington, DC 20585
                                                 April 3,2003



              MEMORANDUM FOR FREDERICK D.DOGGETT
                             DFPUTY ASSISTANT INSPECTOR GENERAL FOR
                              AUDlT SERVICES

              FROM:


                                                    v
              SUBJECT:                CoznmcnB on XC3 Draft Report, "Managemeslt of the
                                      Department's Protective Forces"
              The DepaTtmental Elements fbr the Under Secretary for Energy, Scion= and the
              Envitonmmthave &ewed the subject report and offer the following comments, which
              have been         ed from their original submittals.
              We appreciateths insjghtfid c a m m e and recommdations of the IG. Geaorrrlly, the
              recommemdation~ in the report contained merit and the rcspactive Departmental Elcmcnts
              m addressingthe lucoUKnendatioasas eppropriste.
              Spedfic loepartmentnl Element Comments:
              Tbc ofxice of Science (SC)providas the following input to the four rccommcndations
              madt in the rcpolt:

              1. Increase the use of p c r e m i n g in conjunction with the M A P to impmve timeliness
                 Of th8 ClcarrmcC

                 SC will Qnphasizb the availabilityofthe timely AAAP p c t s s as needed for SC sites
                 that carny weapon6 (Oak Ridge National taboratory ( O W ) and Bmkhava
                 National )?aboratory (BNL)). Extensivopmcresning psbcessbs arc in place to choose
                 candidatesforthe AAAP pmcess at ORNL.
              2. Incorporatt &hmanc~ expectations into the Deparbnat's management contracts
                 directed at administeringprotective force wartimb costs.
                 Paformance Evaluation Plan6 for the protective sewica contractor (Wackcnhut
                               -
                 S d c u s , Inc. Oak Ridge (WSI-OR)) have roWhdy h c M d Paformanct
                 Objsctivts for the mauagment of ovestimc. Contract administrators closely monitor
                 overtimeusage, and extensive effort is placed on ovutime reduction by WSI-OR
                 manageanat. Tha oyutimc cortrr at BNL era within acceptable limits. This is a
                 challange when the Department SECONs go up and down.
                                            @prHd.rllh*hkon+Wr




    Page 10                                                                                Management Comments
                                                                                                          2

          1. Develop a Depaxtment lave1 protective force contingencyplan.
             SC has r e d and commented on a draft DOE-wi& plan (guidanceonly) for
             contingency faroes &om the Office of Security.
          2. Track pmtbctive force overtime costs and attrition ratas as a means to monitor the
             e&ctivenees of ~OrkforCenranagapraat initiatives rrt the cantractor and prograrn
             level.
             These costs and rates arc tracked at SC sites that carry wcapons. Management and
             contract M s t r a t o r s will remain aleat to any developing trends in this area and, as
             nccasary, apply action to reictipy any problems noticed.
          The Office of Fossil En&      conam with the IG finding9 and recommendations with the
          caveat that the \1so of departmental mourcts should bc justified by cost benefit analysis
          andlor by human saf“ and health Coasiderations, national s e c d t y , etc.
          As a general comment, the Office of Nuclear Enorgy, Science and Technology stated that
          Since d y N N S A sites were reviewed, them m y be inaccuracies introduced ha trying to
          extrapolate tho audit results to the entire DOE CornpIcx. Specific comments:
          1. Memo, page 1, sixth line ofbackground section: Add “at Various fhcilities” after the
             phrase “to o m of demial.”
          2. Memo, page 1, sccand to fast santuact: Chmge “qualifying”to phrase “proasshg
             security cltafancca for“
          3. Report, page 3, stcopd sentence. ContingencePlanning: Instead o f a complex-wide
             grotactive f<rrce oontingutcy plan, - 4        o r g a n h t h d or site plans. A DOE
             complex-wide plan is not practkd because of diffennt h d i n g sources
             and protective force contractor organizations.
          The office of Environmtal Management (BM) concurs with Rscornm~dations1,3.
          and 4, end has tho following comment concerningRecommtndotion 2. EM is reviewing
          all of itr contracts to ensure tbat we am setting sxpactations riad drivhg tho prfommce
          through the G O ~ ~ I W  Their
                                    L    stated god is to safely sccelcratt risk reduction and cleanup;
          a key element ia achieving this goal is to sure that our supports costs. which iacludo
          safagumh and s d t y , do not cost any more than they &auld That being said, EM
          eadorses the spirit of the Recommandation, however, is concerned that followingthe
          letter ofthe Recommendationmay cause them to measure and monitor the wrong set of
          Pcrformanca iadicabors.
          The Office of Bnagy Efficiency and Renewable Energy had no commests.
          Please c o n k t Mark T   h   d of my officeat 301-903-2995 ifyou have any qutstions or
          cgplmentg.




Page 11
                                  Department of Energy
                             National Nucbnr SeeurRy Admhktration
                                       Washington,DC 20685

                                         APR o 2 m

          MEMORANDUMFOR


          FROM:


          SUBJECT
                                       Frcdrick D.Doggetr
                                        -3
                                         fb)" uditScrvicos

                                        AnthonyRLane 2       *
                                              Assistant h q x c t o r Oeneral



                                        Associate Administrator
                                         for Management and Administration
                                            4 -



                                        cd;$ljncnts on Protective P   ~ ~a
                                                                         C nagcmta
                                                                                    &?< L
                                                                                      JG
                                        DtaffRcport

          The Natiod Nuclear SscUtity Administration ("SA)          appraciates having had the
          opporhdty to have reviewed the Itlsgector General's (IG) draft rsport,
          "Managcmsxn ofthe Department's Protective Forccs." W e understand that,5hm
          previous reports, the IG had noted a number of efficiency-rehcd comemu with
          tho m a n c l l t of its pmkctke forces. In light of those concBlTJ1s and the change
          in threat Level, the 10 hi-     this audit to detrrrnina whether tbe Protcdve Force
          Pros- is -=ly                       . .
                                   baing managed.

          The draft raport noted that thm have ~ C C Aimprovcmm~in the maaagemcnt of
          the proteosivc forces but the I 0 believed that there were mill a number of
          challenges that could adversely a&ct tha program. 'The I a observed:
          .       long delays associated with granting c l m c e s for newly employed
          .       OfficuS
                  iacreases in unrrchcduled overtime wsts
                  morale and potential retention problems based on aandulory overcima and
                  dCC1iningtraining-      'tit6
          0       opCratid vukrabfiities asBociated with unscheduled work stoppages

          While the draft report did give credit for having taka a nunher of actionsto
          reduce the impact of the change in &reats, the report makes several
          Tecomm&onsto:
                  tncrrasethe usc of ptt s c r k h g in conjunction with the Acctlcrated
                  Access AuthorizationProgram (AAAP) to improve the timeliness of the
                  claanrncc p m c u s
                  in-          Performa~lcexpectations
                                           e             into the management contracts
                   direct@ at adminiJtaring PFqteCtive force overthe costs




Page 12
                                                                                  2
..     develop a protective for& contingency plan
       Track protective force overtima costs and atbition rates as a means to
       monitor the effectiveness of workforce managementinitiatives at the
       cantractor and program level.
While NNSA generally agree3 with the draft report and the recommsndation~.        wc
believe that incorporatingporformtmce -on             into the management contracts
                      .
focused on & d d & b M g protecHve forct overtime cow would be
coI1PtebplOdUCti~e.ov a tim o i s inhered to security oprations and also occurs
with delays in processing security c l m c e a and with increased demands for
securlty officers. Delays in the clearance process. as you am aware. may be
caused by FBI or OPM backlog of clearance invcatigations,or by clearance
adjudication, or by candidaxes not maeting criteria for AAAP - thereby having to
go though the normal or expedited pspoess. W e it may be causefor additional
review, W S A ’ s Site Managmwill have to detrrmm     ’ e what is an accqtable level
of overtime to be charged to their contracts. Thie then would differ fiom site to
site depending oil specific needs, Situations, and risks. 1 would also like to point
out that the NNSA has not granted any waivers regarding tinarms requalification,
as indicated in the draft report.

The development of a protectivefom contiagencyplan, as mentioned in the draft
report, is laudable. The difiicultits arise, short of rule making, firosn having
multiple unions rspresentingthe pmttctive force officers,multiple conwors
@JNSAdoes not have the smme protective force c      o
                                                    -         throughout their
complex), and etparate contraots for each site.

Should you have any questions. ploasc coptaotRichard Speidcl, Director,Policy
and Internal cantrolsManagtmcnt,crt 5865009.
cc:   Ong Rudy, AssociatG Administrat0r for Facilities and Operations, NA-SO
      John C.Todd, -f,   Def;cnee N ~ ~ l t S
                                            a rd t y , NA-3.3
      Rob& Bnrden, S;smiorProcurement Executive, NA-63
      David Marks, -or,    Field Financial Management, Service Center, N V
                                                                                IG Report No.: DOEDG-0602

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
    audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone nurnber so that we may contact you should we have any questions
about your comments.

Name                                           Date

Telephone                                      Organization

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                    Office of Inspector General (IG- 1)
                                          Department of Energy
                                         Washington, DC 20585

                                        AT":    Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586- 1924.
The Office of Inspector General wants to make the distribution of its reports as customer fkiendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
